         DOD COMPLIANCE WITH THE INFORMATION
         ASSURANCE VULNERABILITY ALERT POLICY


Report No. D-2001-013               December 1, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
C/S/A                 Commanders in Chief, Services, and Defense agencies
CERT                  Computer Emergency Response Team
DISA                  Defense Information Systems Agency
IAVA                  Information Assurance Vulnerability Alert
OSD                   Office of the Secretary of Defense
                        Office of the Inspector General, DoD
Report No. D-2001-013                                              December 1, 2000
    (Project No. D2000AS-0086.003)
    (formerly Project No. OAS-6104.03

             DoD Compliance With the Information Assurance
                       Vulnerability Alert Policy

                                  Executive Summary

Introduction. The Deputy Secretary of Defense issued an Information Assurance
Vulnerability Alert (IAVA) policy memorandum on December 30, 1999. Recent events
demonstrated that widely known vulnerabilities exist throughout DoD networks, with
the potential to severely degrade mission performance. The policy memorandum
instructs the Defense Information Systems Agency to develop and maintain an IAVA
database system that would ensure a positive control mechanism for system
administrators to receive, acknowledge, and comply with system vulnerability alert
notifications. The IAVA policy requires the Commanders in Chief, Services, and
Defense agencies to register and report their acknowledgement of and compliance with
the IAVA database. According to the policy memorandum, the compliance data to be
reported should include the number of assets affected, the number of assets in
compliance, and the number of assets with waivers. The policy memorandum provided
for a compliance review by the Inspector General, DoD.

Objectives. The audit objective was to evaluate the progress that DoD made in
complying with the Deputy Secretary of Defense policy memorandum on IAVA.

Results. As of August 2000, DoD progress in complying with the Deputy Secretary of
Defense IAVA policy memorandum had not been consistent. At that time, all 9
Commanders in Chief, 4 Services, and 14 Defense agencies had registered as reporting
entities with the IAVA database, but 4 other DoD Components had not. Also,
information contained in the database for the alerts posted in 2000 showed that of the
Components that had registered, only four Commanders in Chief, one Service, four
Defense Agencies, and two other DoD Components had reported compliance in
accordance with the IAVA policy. As of November 2000, however, DoD had made
significant progress in IAVA implementation. The four DoD Components that had not
registered were reporting through the Office of the Secretary of Defense point of
contact and are no longer required to register separately. All Commanders in Chief, 2
of the 4 Services, and 13 of the 14 Defense agencies were now reporting in compliance
with IAVA policy. The Defense Security Service, the one remaining Defense agency
that had not fully complied with the reporting requirements, was working to put an
infrastructure in place for reporting in accordance with the policy. Of the other DoD
components, the Office of the Secretary of Defense was not yet reporting compliance in
accordance with IAVA policy; however, it planned to be fully compliant by April 2001.
Compliance by the Office of the Secretary of Defense is critical because 20 other DoD
organizations will be reporting through it. Effective implementation of IAVA policy
will help ensure that DoD Components take appropriate mitigating actions against
vulnerabilities to avoid serious compromises to DoD computer system assets that would
potentially degrade mission performance.
Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) revise and expedite
the release of the DoD IAVA Instruction, develop a DoD IAVA implementation plan,
and finalize and approve the internal instruction for the Office of the Secretary of
Defense that outlines the roles and reporting responsibilities of DoD organizations that
will report IAVA compliance through the Office of the Secretary of Defense point of
contact.

We recommend that the Secretaries of the Army and Air Force; the Commandant of the
Marine Corps; the Commanders of the U.S. European Command, U.S. Southern
Command, U.S. Special Operations Command, U.S. Transportation Command, and
U.S. Strategic Command; the Directors of the Ballistic Missile Defense Organization,
Defense Advanced Research Projects Agency, Defense Commissary Agency, Defense
Contract Audit Agency, Defense Finance and Accounting Service, Defense Intelligence
Agency, Defense Prisoner of War/Missing Personnel Office, Defense Security Service,
Defense Threat Reduction Agency, Joint Staff, National Imagery and Mapping Agency,
and National Reconnaissance Office report compliance by stating the number of assets
affected, the number of assets in compliance, and the number of assets with waivers, as
stated in the Deputy Secretary of Defense policy memorandum.

Management Comments. The Director, Information and Infrastructure, Office of the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence), concurred with the recommendation on developing the DoD IAVA
instruction and concurred that details about IAVA implementation needed to be
addressed. However, the Director stated that an implementation plan was not required
because the DoD Instruction on Information Assurance Vulnerability Reporting and
Mitigation would address those details. The Deputy Director, Defense Network
Operations, Office of the Assistant Secretary, provided comments that addressed the
IAVA internal process of the Office of the Secretary of Defense. The management
comments concurred with the recommendation to report compliance in accordance with
the Deputy Secretary of Defense policy memorandum. However, the Army and Air
Force did not comment on the recommendation and, as of November 6, 2000, they
were still not reporting in accordance with policy. A discussion of management
comments is in the Finding section of the report and the complete text is in the
Management Comments section.
Audit Response. The comments that we received were fully responsive. As a result
of comments from the Joint Staff, we revised the recommendation on developing and
disseminating an implementation plan for IAVA to include training in addition to
registration, reporting, and compliance guidance. Also, based on the Deputy Director,
Defense Network Operations’ comments, we added a recommendation that the
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
finalize the internal instruction for the Office of the Secretary of Defense relating to the
IAVA process. Therefore, in response to the final report, we ask that the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) comment
on the recommendations by January 30, 2001. Also, the Army and Air Force did not
comment on the draft report; therefore, we request that they provide comments on the
final report by January 30, 2001.




                                             ii
Table of Contents

Executive Summary                                                            i


Introduction
     Background                                                              1
     Objectives                                                              2

Finding
     DoD Compliance with the Information Assurance Vulnerability Alert
       Policy                                                                3

Appendixes
     A. Audit Process
           Scope and Methodology                                            13
           Prior Coverage                                                   14
     B. Commanders in Chief, Services, Defense Agencies, and other DoD
           Components Required to be Registered Users                       15
     C. Acknowledgement of the Information Assurance Vulnerability Alerts
           Issued in 2000                                                   18
     D. Compliance With the Information Assurance Vulnerability Alerts
           Issued in 2000                                                   20
     E. Information Assurance Vulnerability Alert Process                   22
     F. Report Distribution                                                 23

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
           and Intelligence)
           Director, Infrastructure and Information Assurance               27
           Deputy Director, Defense Network Operations                      31
     U.S. Southern Command                                                  35
     Defense Advanced Research Projects Agency                              36
     Defense Commissary Agency                                              38
     Defense Contract Audit Agency                                          40
     Defense Finance and Accounting Service                                 41
     Defense Security Service                                               43
     Defense Threat Reduction Agency                                        45
     Joint Staff                                                            46
     Department of Defense Education Activity                               48
     Washington Headquarters Services                                       50
Background
    Information assurance is an essential element of operational readiness and is
    based on the need for accurate and timely exchange of information. With the
    advances in information technology, new vulnerabilities to the critical
    infrastructure are evolving. On February 15, 1998, the Deputy Secretary of
    Defense issued a classified memorandum, “Information Assurance,” which
    instructed the Defense Information Systems Agency (DISA), with the assistance
    of the Military Departments, to develop an alert system that ensured positive
    control of information assurance. According to the memorandum, the alert
    system should:

           •   identify a system administrator to be the point of contact for each
               relevant network system,

           •   send alert notifications to each point of contact,

           •   require confirmation by each point of contact acknowledging receipt
               of each alert notification,

           •   establish a date for the corrective action to be implemented, and

           •   enable DISA to confirm whether the correction has been
               implemented.

    In another memorandum, February 19, 1998, the Deputy Secretary of Defense
    directed DoD Components to develop an action plan to detect cyber intrusion.
    Each Component’s action plan should include a process for correcting existing
    vulnerabilities and for providing formal training and certification of the network
    operators, system administrators, and information system security officers. The
    action plan should also include a process for conducting periodic analysis and
    assessing information assurance vulnerabilities.

    Information Assurance Vulnerability Alert Policy Memorandum. On
    December 30, 1999, the Deputy Secretary of Defense issued an Information
    Assurance Vulnerability Alert (IAVA) policy memorandum requiring all the
    Commanders in Chief (CINC), the Services, and Defense agencies (C/S/A) to
    register and comply with the IAVA process. The IAVA policy establishes the
    roles and responsibilities for the Assistant Secretary of Defense for Command,
    Control, Communications, and Intelligence (ASD[C3I]) and the Defense
    Components. The policy memorandum tasked the ASD(C3I) with the
    responsibility to implement the IAVA process.

    The policy memorandum tasked DISA with the responsibility to manage the
    IAVA process and distribute the alerts to the C/S/As. Each C/S/A will
    designate a primary and secondary point of contact responsible for
    acknowledging receipt of the IAVA notifications and for reporting compliance.
    Each C/S/A is also responsible for disseminating the notifications to all
    personnel who can implement and manage the technical responses to the IAVAs.


                                         1
    In addition, according to the policy memorandum, a DoD Instruction will be
    developed to formalize the IAVA process. Meanwhile, the memorandum
    provided for a compliance review by the Inspector General, DoD.

    The 1999 DoD Chief Information Officer Annual Information Assurance
    Report. The report, which was issued to Congress in February 2000, stated
    that DISA had an operational system that disseminates vulnerability alerts and
    tracks DoD Component compliance with the alerts. The report also stated that a
    DoD Instruction was being developed to formalize the notification process.

Objective
    Our audit objective was to evaluate the progress that DoD made in complying
    with the Deputy Secretary of Defense policy memorandum on IAVA. See
    Appendix A for a discussion of the audit scope and methodology.




                                       2
Information Assurance Vulnerability
Alert Policy
In August 2000, when we issued the draft audit report, DoD progress in
complying with the Deputy Secretary of Defense policy memorandum
had not been consistent. At that time, all 9 CINCs, 4 Services, and
14 Defense agencies had registered as reporting entities with the IAVA
database, but 4 other DoD Components had not. Also, information
contained in the IAVA database for the alerts posted in 2000, showed
that of those Components that had registered, only four CINCs, one
Service, four Defense agencies, and two other DoD Components had
reported compliance in accordance with the IAVA policy. Adequate
implementation and compliance with the Deputy Secretary of Defense
policy memorandum, dated December 30, 1999, was lacking because the
ASD (C3I) had not:

       •   finalized a DoD Instruction to formalize the IAVA process,
           and

       •   developed a DoD implementation plan to require the CINCs,
           Services, and Defense agencies to register, report, and
           comply with IAVA notifications.

As of November 2000, DoD had made significant progress in IAVA
implementation. The four DoD Components that had not registered were
reporting through the Office of the Secretary of Defense (OSD) point of
contact and are no longer required to register separately. All CINCs, 2
of the 4 Services, and 13 of the 14 Defense agencies were now reporting
in compliance with IAVA policy. The Defense Security Service, the one
remaining Defense agency that had not fully complied with the reporting
requirements, was working to put an infrastructure in place for reporting
in accordance with the policy. Of the other DoD Components, OSD was
not yet reporting compliance in accordance with IAVA policy; however,
OSD planned to be fully compliant by April 2001. Compliance by OSD
is critical because 20 other DoD organizations will be reporting through
it (see Appendix B).

Complete implementation of IAVA policy will help ensure that DoD
Components take appropriate mitigating actions against vulnerabilities to
avoid serious compromises to DoD computer system assets that would
potentially degrade mission performance.




                            3
IAVA Policy Requirements

    The IAVA policy memorandum requires each C/S/A to register in the IAVA
    database located on the IAVA website, acknowledge receipt of IAVA
    notifications, and report compliance.

    Registration. To register in the IAVA database, each point of contact should
    contact DISA to obtain a DISA Form 41. When DISA receives the completed
    form, it will issue a user identification name and password so that the point of
    contact can gain access to the IAVA database.

    According to the Director, Infrastructure and Information Assurance
    Directorate, Office of ASD (C3I), the IAVA policy applies to all DoD
    Components. In August 2000, at the time of the issuance of our draft audit
    report, all 9 CINCs, 4 Services, and 14 Defense agencies had registered as
    reporting entities, but 4 other DoD Components had not registered. As of
    November 2000, all DoD Components were effectively registered because OSD
    had decided that the four organizations that had not registered are reporting
    through OSD and, therefore, will not be required to register separately.
    Appendix B provides a detailed list of the DoD Components and also identifies
    those that will not register separately but will report through OSD.

    Acknowledgement of Receipt. Once a point of contact is registered with the
    IAVA database, DISA notifies the point of contact by electronic mail when an
    IAVA is issued. The electronic mail message directs the point of contact to
    access the DoD Computer Emergency Response Team (CERT) website and
    review the posted IAVA notification. Each point of contact is to acknowledge
    receipt of the IAVA notification to the IAVA database within 5 days, unless
    specified otherwise. Appendix C shows DoD Components’ acknowledgement to
    the alerts posted in 2000. As of November 2000, all DoD Components were
    complying with the acknowledgement requirements.

    Report Compliance. The points of contact are to implement the corrective
    action necessary to fix the vulnerability and report the status of compliance to
    the IAVA database within 30 days, unless specified differently in the IAVA
    message. The policy memorandum requires that compliance information must
    include the number of assets affected, the number of assets in compliance, and
    the number of assets with waivers. As of August 2000, only four CINCs, one
    Service, four Defense agencies, and two other DoD Components had reported
    compliance in accordance with IAVA policy. However, information extracted
    from the IAVA database on November 6, 2000, showed significant
    improvement. All CINCs, 2 of the 4 Services, and 13 of 14 Defense agencies
    were now reporting in compliance with IAVA policy. Of those categorized as
    other DoD Components, OSD was not yet reporting compliance in accordance
    with IAVA policy, but was taking actions to become fully compliant.
    Appendix D shows DoD Components’ compliance to the alerts posted in 2000.

          CINCs. We obtained information from the IAVA database to determine
    whether the nine CINCs had complied with the IAVA policy for the three alerts

                                        4
posted in 2000. At the time of the issuance of our draft audit report in August
2000, four CINCs reported compliance data as outlined in the IAVA policy. As
of November 2000, all CINCs were reporting compliance data in accordance
with the policy.

      Services. We contacted the Services to determine whether they were
implementing the IAVA policy and disseminating the IAVA notifications to all
program managers, system administrators, and other personnel responsible for
implementing and managing technical responses.

The Services had implemented a positive control mechanism for ensuring
compliance with IAVA notifications. The Services stated that they had
developed a process to receive alert notifications and to disseminate the alerts to
the lowest level.

At the time of the issuance of our draft report, only the Navy was reporting
compliance data to the IAVA database in accordance with the standards set forth
in the IAVA policy memorandum. As of November 2000, the Marine Corps
was also reporting correctly. The Army and Air Force were still not reporting
in accordance with policy. The Army was reporting compliance in the form of
percentages, and the Air Force was reporting compliance by stating that it was
in compliance.

        Defense Agencies. At the time of the issuance of our draft report, only
four Defense agencies reported compliance in terms of number of assets
affected, number of assets in compliance, number of waivers requested, and
number of waivers approved or by indicating that the IAVA was not applicable
to their assets. The remaining Defense agencies reported compliance data by
stating either that they were compliant or they did not indicate any form of
compliance. As of November 2000, the reporting situation had improved. Only
one Defense agency, the Defense Security Service, had not complied with the
reporting requirements, but it was working to put an infrastructure in place for
reporting in accordance with the policy.

        Other DoD Components. At the time of the draft report, the IAVA
database indicated that two other Components (Washington Headquarters
Services and the Inspector General) reported compliance data in accordance with
the policy memorandum. The remaining three other DoD components that were
registered (OSD, Joint Staff, and Defense Prisoner of War/Missing Personnel
Office) reported by stating either that they were compliant or they did not
indicate any form of compliance. OSD had not acknowledged receipt of IAVA
notifications or reported compliance in accordance with IAVA policy because a
formal internal compliance process had not been finalized and personnel had not
been trained. OSD developed a draft IAVA implementation plan and a draft
IAVA instruction, but both documents needed to be approved by ASD(C3I)
before OSD would be able to comply with the IAVA policy tasking. OSD set a
tentative date of February 5, 2001, to train all personnel and establish a process
for reporting compliance with the IAVA policy.

As of November 2000, OSD was acknowledging receipt of IAVA notifications,
but was not yet reporting compliance in accordance with IAVA policy.

                                     5
    However, the Deputy Director, OSD Network Operations, stated that the IAVA
    system would be fully implemented within OSD in April 2001. At that time, all
    OSD umbrella organizations (those organizations that would report IAVA
    compliance through OSD) would register all assets affected, the number of
    assets in compliance, and the number of assets with waivers and, therefore, be
    able to report in accordance with the IAVA policy. Additional audit work since
    the issuance of the draft report disclosed that the Joint Staff was now reporting
    compliance in accordance with the IAVA policy memorandum. The Defense
    Prisoner of War/Missing Personnel Office is an OSD umbrella organization that
    will report to OSD.

            OSD Umbrella Organizations. The OSD umbrella organizations that
    will report directly to OSD include the Under Secretary of Defense for
    Acquisition, Technology, and Logistics; the Under Secretary of Defense for
    Policy; the Under Secretary of Defense (Comptroller and Chief Financial
    Officer); the Under Secretary of Defense for Personnel Readiness; the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence);
    the Assistant Secretary of Defense for Health Affairs; the Assistant Secretary of
    Defense for Intelligence Oversight; the Assistant Secretary of Defense for
    Legislative Affairs; the Assistant Secretary of Defense for Public Affairs; the
    Assistant Secretary of Defense for Reserve Affairs; the General Counsel; the
    Executive Secretary of the Department of Defense; the Director, Operational
    Test and Evaluation; the Director, Program Analysis and Evaluation; the
    Director, American Forces Information Services; the Director, Defense Prisoner
    of War/Missing Personnel Office; the Director, DoD Education Activity; the
    Director, DoD Human Resources Activity; the Director, Office of Economic
    Adjustment; and the Director, TRICARE Management Activity.

    The Deputy Director, OSD Network Operations, stated that the draft OSD
    instruction for the umbrella organizations, “OSD Information Assurance
    Vulnerability Assessment,” was provided to ASD(C3I) for coordination and
    approval in July 2000; however, as of November 2000, the instruction was not
    finalized. The draft instruction outlines the roles and responsibilities for the
    OSD umbrella organizations to report compliance through the IAVA Desk
    Officer within the OSD Information Technical Directorate.



Implementation of the IAVA Policy

    We attributed the poor implementation status of the IAVA process at the time of
    our draft report to the lack of implementation of the Deputy Secretary of
    Defense IAVA policy memorandum. As of November 2000, the ASD(C3I) had
    not issued a final Instruction formalizing the IAVA process and had not
    developed an implementation plan for IAVA compliance.

    Status of Instruction. According to the IAVA policy memorandum, a DoD
    Instruction was to be developed to formalize the IAVA process. However, as of
    November 2000, the Instruction was still in draft form. The draft Instruction

                                        6
    states that the policy is applicable to all the information systems managed or
    used by DoD Components. However, the Instruction defines roles and
    responsibilities for only the C/S/As; it does not include the roles and
    responsibilities of other DoD Components. The draft IAVA Instruction is also
    vague in defining the common methodology for the Designated Approval
    Authorities to assess risk when granting waivers and in who may be designated
    as a C/S/A point of contact. Also, the draft Instruction does not require the
    Designated Approval Authorities to document their assessment of an asset’s
    risk. The draft Instruction states that DISA will periodically report the
    compliance status of the C/S/As and waivers to the Deputy Secretary of
    Defense. Therefore, Designated Approval Authorities should maintain proper
    documentation for risk assessments explaining why a waiver was granted for a
    system asset. Also, the draft Instruction does not address how a system asset
    will be monitored if a waiver is granted, so that the vulnerability is not exploited
    before the corrective action is implemented. The draft Instruction states that
    each C/S/A should designate a primary and secondary point of contact, but it
    does not state the type of position or training that should be held by the points of
    contact.

    Status of Implementation Plan. The IAVA policy memorandum gave the
    overall responsibility to ASD(C3I) to implement the IAVA policy to all the
    C/S/As. As of November 2000, an overall DoD implementation plan had not
    been developed. Without an overall DoD implementation plan, no set
    guidelines were being followed or issued to the DoD Components on how to
    register, report, and comply with the IAVA database in accordance with the
    policy memorandum. Also, according to the Director, Infrastructure and
    Information Assurance Directorate of ASD(C3I), the Directorate does not have
    the authority to enforce the requirement that DoD Components register and
    report compliance in accordance with the IAVA policy. The Infrastructure and
    Information Assurance Directorate is responsible only for implementing the
    IAVA policy.



Management of the IAVA Process

    DISA Responsibilities. DISA is responsible for developing and maintaining the
    IAVA process. The IAVA database system is used to track compliance and
    statistics. Each DoD Component must register a point of contact in the database
    to obtain a user identification name and password to ensure receipt of the IAVA
    notification. The IAVA process provides DoD Components with a positive
    control mechanism to ensure that system administrators receive, acknowledge,
    and comply with alert notifications. Also, it should provide a method to
    measure risk avoidance within the overall risk management framework. See
    Appendix E for an explanation of the IAVA process.

    IAVA Notification. The CERT is responsible for the integrity and availability
    of elements and applications of the Defense Information Infrastructure. When


                                         7
    the CERT becomes aware of a vulnerability to DoD computer system assets, it
    conducts research to determine:

           •   the type of operating system affected,

           •   the vulnerability of the application affected,

           •   the ease of access to the system,

           •   the type of threat imposed,

           •   whether the infrastructure will be affected, and

           •   whether the vulnerability has already been exploited.

    Based on the results of the its research, the CERT will decide whether to issue
    an IAVA, an Information Assurance Vulnerability Bulletin, or a Technical
    Advisory. An IAVA is generated when a vulnerability is considered to be
    severe and a known corrective action is available. An IAVA requires DoD
    Components to acknowledge receipt of the alert notification and to report the
    status of compliance within the specified timeframe. A Bulletin requires an
    acknowledgment of alert notifications; it is issued for a vulnerability that is not
    an immediate threat but which, if not corrected, could escalate to a more severe
    problem. An Advisory does not have reporting requirements because it is
    considered to be low risk.

    When the type of alert has been determined, the CERT develops the IAVA
    message and posts it on the CERT website. The IAVA message contains
    technical specifics about the vulnerability and the corrective action to be taken.
    DISA then disseminates an electronic message to all registered points of contact
    who disseminate the IAVA throughout their organizations and report compliance
    to the IAVA database within the established timeframe.



Effects of IAVA Noncompliance

    For the IAVA policy to be effective, all DoD Components must register with
    the IAVA database and report compliance in accordance with specific guidance
    outlined in the IAVA policy memorandum. Without effective implementation of
    the IAVA policy, DoD Components cannot be assured of taking mitigating
    actions to avoid serious compromises to computer system assets. As a result,
    the reliability and effectiveness of the computer systems that are needed to
    ensure successful mission performance could be potentially degraded. Not
    maintaining positive control of vulnerability notifications and not applying the
    necessary corrective actions increase risks to the DoD infrastructure.




                                         8
Summary

    The IAVA policy requires DoD Components to register with the IAVA database
    and report compliance to IAVA notifications. The compliance information must
    be reported by stating the number of assets affected, the number of assets in
    compliance, and the number of assets with waivers. As of November 2000, all
    DoD Components that were required to register with the IAVA database had
    registered. Furthermore, all DoD Components with the exception of the Army,
    the Air Force, the Defense Security Service, and OSD, were reporting
    compliance in accordance with the December 30, 1999, IAVA policy
    memorandum. Both the Defense Security Service and OSD were working to
    become fully compliant. ASD(C3I) was developing an Instruction to formalize
    the IAVA process within DoD, but as of November 2000, the DoD Instruction
    was still in draft form. In addition, ASD(C3I) had not finalized and approved an
    internal OSD instruction outlining the IAVA process within OSD and its
    umbrella organizations. Finalization of both instructions will help ensure
    effective implementation of IAVA policy within DoD.



Recommendations, Management Comments, and Audit
Response

    Revised, Added, Deleted, and Renumbered Recommendations. As a result
    of the Joint Staff comments, we revised draft Recommendation 1.b to include
    training as part of the DoD implementation plan. We added
    Recommendation 1.c. to require the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) to finalize the internal OSD
    Information Assurance Vulnerability Alert Instruction. We deleted draft
    Recommendation 2. because those organizations will report their compliance
    through the Office of the Secretary of Defense. Draft Recommendation 3. has
    been renumbered as Recommendation 2.

    1. We recommend that the Assistant Secretary of Defense, Command,
    Control, Communications, and Intelligence, as DoD Chief Information
    Officer:

          a. Revise and expedite the release of the DoD Information Assurance
    Vulnerability Alert Instruction to include language to define:

                  (1) The roles and responsibilities for DoD Components.

    Office of the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) Comments. The Director, Infrastructure
    and Information Assurance, concurred and stated that the draft DoD
    Instruction O-8530.bb, “Support to Computer Network Defense,” addresses the
    responsibilities of the Assistant Secretary of Defense (Command, Control,

                                       9
Communications and Intelligence) for vulnerability analysis, assessment
notification, reporting, and coordination. Once this draft instruction has been
signed, a separate DoD Instruction on Information Assurance Vulnerability
Reporting and Mitigation will be developed that will contain specific language to
define the roles and responsibilities of DoD Components.

The Deputy Director, OSD Network Operations, provided comments concurring
with the report and specifically addressing implementation of the IAVA process
within the Office of the Secretary of Defense.

             (2) The types of positions and skills needed by the primary
and secondary points of contact for DoD Components.

Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments. The Director concurred and
stated that any unique skills or training required to implement the vulnerability
reporting and mitigation program will be identified.

             (3) A common methodology of risk assessment for the
Designated Approval Authorities to document the risk-assessment
monitoring process when granting a waiver for an asset.

Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments. The Director concurred with
the intent of defining a common methodology for risk assessment, but stated that
a separate risk assessment monitoring process was not required or appropriate
because it is covered under DoD Instruction 5200.40, “DoD Information
Technology Security Certification and Accreditation Process,” December 30,
1997.

Audit Response. The Director’s comments meet the intent of the
recommendation. No further comments are required.

              (4) A methodology for the Designated Approval Authorities
to monitor systems so that vulnerabilities may not be exploited.

Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments. The Director concurred with
the intent of the recommendation, but stated that monitoring systems for
vulnerabilities is not part of the Information Assurance Vulnerability Alert
process. Draft DoD Directive 0-8530.aa states that an effective Computer
Network Defense is predicated upon robust infrastructure and information
assurance practices, including regular and proactive vulnerability analysis and
assessment, and implementation of identified improvements. The Directive is
scheduled to be signed prior to December 15, 2000.

Audit Response. The Director’s comments meet the intent of the
recommendation. No further comments are required.




                                    10
       b. Develop and disseminate a DoD implementation plan to DoD
Components that will provide full Information Assurance Vulnerability
Alert registration, reporting, training, and compliance guidance.

Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments. The Director concurred that
details about Information Assurance Vulnerability Alert registration, reporting
and compliance needed to be addressed, but stated that an implementation plan
was not required because the DoD Instruction on Information Assurance
Vulnerability Reporting and Mitigation will address those details.

Audit Response. The Director’s comments meet the intent of the
recommendation, providing the instruction adequately addresses the
requirements for Information Assurance Vulnerability Alert registrations,
reporting, and compliance. Based on the Joint Staff comments, we revised the
recommendation to include training.

       c. Finalize and approve the Office of the Secretary of Defense
instruction that outlines the roles and reporting responsibilities of the DoD
Components that will be reporting through the Office of the Secretary of
Defense.

2. We recommend that the Secretaries of the Army and Air Force; the
Commandant of the Marine Corps; the Commanders of the U.S. European
Command, U.S. Southern Command, U.S. Special Operations Command,
U.S. Transportation Command, and U.S. Strategic Command; the
Directors of the Ballistic Missile Defense Organization, Defense Advanced
Research Projects Agency, Defense Commissary Agency, Defense Contract
Audit Agency, Defense Finance and Accounting Service, Defense
Intelligence Agency, Defense Security Service, Defense Threat Reduction
Agency, Joint Staff, National Imagery and Mapping Agency, and National
Reconnaissance Office report compliance by stating the number of assets
affected, the number of assets in compliance, and the number of assets with
waivers, as stated in the Deputy Secretary of Defense policy memorandum.

Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments. Although not required to
comment, the Director, Infrastructure and Information Assurance, stated that
this requirement will be specifically addressed in the DoD Instruction on
Information Assurance Vulnerability Reporting and Mitigation.

U.S. Southern Command Comments. The Commander of the U.S. Southern
Command concurred and stated that due to operator error, the automated report
for Information Assurance Vulnerability Alert 2000-A-0003 was not submitted.
However, the report has since been submitted and the U.S. Southern Command
is fully compliant.

Defense Advanced Research Projects Agency Comments. The Defense
Advanced Research Projects Agency concurred and stated that it had completed
corrective actions and reported compliance for the three Information Assurance
Vulnerability Alerts identified in the report. However, it felt that the response

                                    11
time between incident identification and Information Assurance Vulnerability
Alert issuance needed to be reduced. The Defense Advanced Research Projects
Agency suggested measures that provide a proactive information security
intelligence gathering activity through both open sources and polling easily
accessible adversarial sources, rapid response to paid security vendor alerts, and
widespread informal liaison with other government, civilian, academic, and
commercial organizations.

Defense Commissary Agency Comments. The Defense Commissary Agency
concurred and stated that it had complied with the Information Assurance
Vulnerability Alerts issued in 2000 and will continue the process when new
Information Assurance Vulnerability Alerts are issued.

Defense Contract Audit Agency Comments. The Defense Contract Audit
Agency responded that as of October 4, 2000, it was in compliance with the
Information Assurance Vulnerability Alerts issued in 2000 and asked that the
updated compliance status be included in the final report. The Defense Contract
Audit Agency suggested that the Information Assurance Vulnerability Alert
database contain a field to identify whether an alert is open or closed.

Audit Response. We updated Appendix D in the final report to reflect the
updated compliance status.

Defense Finance and Accounting Service Comments. The Defense Finance
and Accounting Service concurred and stated that it had updated the database
and complied with the Information Assurance Vulnerability Alert process in
accordance with the Deputy Secretary of Defense policy memorandum,
December 30, 1999.

Defense Security Service Comments. The Defense Security Service concurred
and stated that it was in the process of defining the agency’s strategy for
complying with the Deputy Secretary of Defense policy memorandum. The
strategy will include establishing a Designated Approving Authority structure
that will grant accrediting authority to Regional Directors and help in expediting
Information Assurance Vulnerability Alerts to the regions. Another part of the
strategy is to implement a hierarchical structure of Information System Security
Officers, who will report the number of systems affected under their purview to
the agency’s Information Assurance Vulnerability Alert point of contact. The
final aspect of the strategy is to appoint Information System Security Managers,
who will provide support and oversight of the Information Assurance
Vulnerability Alert process.

Defense Threat Reduction Agency Comments. The Defense Threat Reduction
Agency stated that compliance was reported for the first two Information
Assurance Vulnerability Alerts issued in 2000; however, for reasons unknown,
those entries were not reflected in the Information Assurance Vulnerability Alert
database. Since the draft report was issued, the Defense Threat Reduction
Agency reentered the information and complied with the third Information
Assurance Vulnerability Alert for 2000. The Defense Threat Reduction Agency



                                    12
also noted that ongoing confusion existed concerning the information entry
requirements and database problems with the Information Assurance
Vulnerability Alert reporting system.

Joint Staff Comments. The Director, Joint Staff, concurred and stated that, in
June 2000, at the direction of the Chairman, Joint Chiefs of Staff, a
comprehensive review of the Commanders in Chief, Services, and Defense
agencies Information Assurance Vulnerability Alert compliance was conducted.
The review led to an increased awareness of the Information Assurance
Vulnerability Alert reporting and compliance requirements by the Commanders
in Chief, Services, and Defense agencies and an increased compliance. Any
discrepancies noted in the review were corrected and, as of August 2000, the
Joint Staff was fully compliant. The Director suggested that our
recommendation on the IAVA Implementation Plan be expanded to include
training. The Director also mentioned that, in coordination with the Defense
Information Systems Agency and the U.S. Space Command, a determination
was being made to decide the feasibility of including the Joint Task Force-
Computer Network Defense in the Information Assurance Vulnerability Alert
process.

Audit Response. In response to the Director’s comments, we revised
Recommendation 1.b. to include training.

DoD Education Activity. The DoD Education Activity concurred and stated
that it was now in compliance with the Deputy Secretary of Defense policy
memorandum.

Army Comments. The Army did not comment on the recommendation. We
request that the Army provide comments in response to the final report.

Air Force Comments. The Air Force did not comment on the
recommendation. We request that the Air Force provide comments in response
to the final report.

Other Management Comments. The Marine Corps, the U.S. European
Command, the U.S. Special Operations Command, the U.S. Transportation
Command, the U.S. Strategic Command, the Ballistic Missile Defense
Organization, the Defense Intelligence Agency, the National Imagery and
Mapping Agency, the National Reconnaissance Office did not comment on a
draft of this report. However, since the Information Assurance Vulnerability
Alert database, of November 6, 2000, showed that those organizations have now
reported compliance in accordance to the Deputy Secretary of Defense policy
memorandum, no further response is required from those organizations.




                                   13
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We conducted research on DoD Component compliance to
    the IAVA notifications, as directed by the Deputy Secretary of Defense IAVA
    policy memorandum, issued December 30, 1999. We reviewed the Deputy
    Secretary of Defense IAVA policy memorandum; the DoD draft IAVA
    Instruction, dated January 18, 2000; and the DISA IAVA Process Handbook,
    dated December 6, 1999.

    We reviewed the actions taken by the Infrastructure and Information Assurance
    Directorate in implementing the IAVA policy. We also reviewed DISA actions
    to manage the IAVA process and disseminate IAVA notifications to the C/S/As.
    We assessed the 31 DoD Components only to determine whether they registered
    in the IAVA database and whether DoD Components, including the C/S/As, are
    reporting compliance in the manner set forth in the IAVA policy. Our review
    covered the periods from February 1998 through November 2000. During the
    audit, we interviewed and contacted personnel from the Office of the ASD(C3I),
    the Defense Information Assurance Program Office, and DISA.

    Limitations to Scope. Our scope was limited because the IAVA policy had not
    been fully implemented by all DoD components, and the DoD components were
    not being required to report compliance in accordance to the IAVA policy
    memorandum. We did not review the overall compliance to the IAVA
    notifications; therefore, we did not include tests of management controls.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. Although the Secretary of Defense has not
    established any goals for Information Assurance, the General Accounting Office
    lists it as a high risk area. This report pertains to Information Assurance as well
    as to achievement of the following goals, subordinate performance goals, and
    performance measures:

           •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.3: Qualitative Assessment of
               Reforming Information Technology Management. (01-DoD-2.5.3)

                                        14
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

           •   Information Technology Management. Objective: Ensure DoD
               vital information resources are secure and protected. Goal: Build
               information assurance framework. (ITM-4.1)

           •   Information Technology Management. Objective: Ensure DoD
               vital information resources are secure and protected. Goal: Assess
               information assurance posture of DoD operational systems.
               (ITM-4.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Information Management and Technology high-risk
    area.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the DISA IAVA database that process DoD Component
    compliance to the IAVA notifications, although we relied on data produced by
    the database to conduct the audit. We did not evaluate the controls because the
    focus of the audit was on the effectiveness of the implementation of the IAVA
    policy. Not evaluating the controls did not affect the results of the audit.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from March 2000 through November 2000, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                       15
Appendix B. Commanders in Chief, Services,
            Defense Agencies, and Other DoD
            Components Required to be
            Registered Users


Commanders in Chief
U.S. Central Command
U.S. European Command
U.S. Pacific Command
U.S. Southern Command
U.S. Joint Forces Command
U.S. Special Operations Command
U.S. Space Command
U.S. Strategic Command
U.S. Transportation Command

Services
Air Force
Army
Marine Corps
Navy

Defense Agencies
Ballistic Missile Defense Organization
Defense Advanced Research Projects Agency
Defense Commissary Agency
Defense Contract Audit Agency
Defense Finance and Accounting Service
Defense Information Systems Agency
Defense Intelligence Agency


                                         16
Defense Agencies (Cont’d)
Defense Logistics Agency
   Defense Contract Management Agency*
Defense Security Cooperation Agency
Defense Security Services
Defense Threat Reduction Agency
National Imagery and Mapping Agency
National Reconnaissance Office
National Security Agency/Central Security Service

Other DoD Components
Inspector General, DoD
Joint Staff
Office of the Secretary of Defense
   Under Secretary of Defense for Acquisition, Technology, and Logistics*
   Under Secretary of Defense for Policy*
   Under Secretary of Defense (Comptroller and Chief Financial Officer)*
   Under Secretary of Defense for Personnel and Readiness*
   Assistant Secretary of Defense (Command, Control, Communications and
     Intelligence)*
   Assistant Secretary of Defense for Health Affairs*
   Assistant Secretary of Defense for Intelligence Oversight*
   Assistant Secretary of Defense for Legislative Affairs*
   Assistant Secretary of Defense for Public Affairs*
   Assistant Secretary of Defense for Reserve Affairs*
   General Counsel*
       Defense Legal Services Agency*
   Executive Secretary of the Department of Defense*
   Operational Test and Evaluation*




                                          17
 Office of the Secretary of Defense (Cont’d)
    Program Analysis and Evaluation*
    American Forces Information Services*
    Defense Prisoner of War/Missing Personnel Office*
    DoD Education Activity*
    DoD Human Resources Activity*
    Office of Economic Adjustment*
    TRICARE Management Activity*
Washington Headquarters Services


*Note: The Defense Contract Management Agency; Under Secretary of Defense for Acquisition,
Technology, and Logistics; Under Secretary of Defense for Policy; Under Secretary of Defense
(Comptroller and Chief Financial Officer); Under Secretary of Defense for Personnel and Readiness;
Assistant Secretary of Defense (Command, Control, Communications and Intelligence); Assistant
Secretary of Defense for Health Affairs; Assistant Secretary of Defense for Intelligence Oversight;
Assistant Secretary of Defense for Legislative Affairs; Assistant Secretary of Defense for Public Affairs;
Assistant Secretary of Defense for Reserve Affairs; General Counsel; Executive Secretary of the
Department of Defense; Operational Test and Evaluation; Program Analysis and Evaluation; the Defense
Legal Services Agency; American Forces Information Services; Defense Prisoner of War/Missing
Personnel Office; DoD Education Activity; DoD Human Resources Activity; Office of Economic
Adjustment; and TRICARE Management Activity report compliance through other agencies; therefore,
they do not need to register with the IAVA database.




                                                   18
Appendix C. Acknowledgement of the
            Information Assurance
            Vulnerability Alerts (IAVA) Issued
            in 2000
This appendix illustrates DoD Component acknowledgement of the three IAVAs issued
in 2000. The data was obtained from the Non-secure Internet Protocol Routing
Network IAVA database website (as of November 2000) and Secure Internet Protocol
Router Network IAVA database website (as of November 2000).

                                            Information Assurance Vulnerability Alert Numbers
                                            2000-A-0001.0.0-01   2000-A-0002.0.0-01   2000-A-0003.0.0-01
                                              Acknowledged         Acknowledged         Acknowledged
Commanders in Chiefs
U.S. Central Command                               Yes                 Yes                  Yes
U.S. European Command                              Yes                 Yes                  Yes
U.S. Joint Forces Command                          Yes                 Yes                  Yes
U.S. Pacific Command                               Yes                 Yes                  Yes
U.S. Southern Command                              Yes                 Yes                  Yes
U.S. Space Command                                 Yes                 Yes                  Yes
U.S. Special Operations Command                    Yes                 Yes                  Yes
U.S. Strategic Command                             Yes                 Yes                  Yes
U.S. Transportation Command                        Yes                 Yes                  Yes
Services
Air Force                                          Yes                 Yes                  Yes
Army                                               Yes                 Yes                  Yes
Marine Corps                                       Yes                 No                   Yes
Navy                                               Yes                 Yes                  Yes
Defense Agencies
Ballistic Missile Defense Organization             Yes                 Yes                  Yes
Defense Advanced Research Projects Agency          Yes                 Yes                  Yes
Defense Commissary Agency                          Yes                 Yes                  Yes
Defense Contract Audit Agency                      Yes                 Yes                  Yes
Defense Finance and Accounting Service             Yes                 Yes                  Yes
Defense Information Systems Agency                 Yes                 Yes                  Yes
Defense Intelligence Agency                        Yes                 Yes                  Yes
Defense Logistics Agency                           Yes                 Yes                  Yes
Defense Security Cooperation Agency                Yes                 Yes                  Yes
Defense Security Services                          Yes                 Yes                  Yes
Defense Threat Reduction Agency                    Yes                 Yes                  Yes
National Imagery and Mapping Agency                Yes                 Yes                  Yes
National Reconnaissance Office                     Yes                 Yes                  Yes
National Security Agency/Central Security          Yes                 Yes                  Yes
   Service



                                              19
                                   Information Assurance Vulnerability Alert Numbers
                                   2000-A-0001.0.0-01   2000-A-0002.0.0-01   2000-A-0003.0.0-01
                                     Acknowledged         Acknowledged         Acknowledged

Other DoD Components
Inspector General, DoD                    Yes                 Yes                  Yes
Joint Staff                               Yes                 Yes                  Yes
Office of Secretary of Defense            Yes                 Yes                  Yes
Washington Headquarters Services          Yes                 Yes                  Yes




                                     20
Appendix D. Compliance With the Information
            Assurance Vulnerability Alerts
            (IAVA) Issued in 2000
This appendix illustrates DoD Component compliance with the three IAVAs issued in
2000. The data was obtained from the Non-secure Internet Protocol Routing Network
IAVA database website (as of November 2000) and Secure Internet Protocol Router
Network IAVA database website (as of November 2000).

                                                             Information Assurance Vulnerability Alert Numbers
                                                             2000-A-0001.0.0-01      2000-A-0002.0.0-01      2000-A-0003.0.0-01
                                                                 Compliance              Compliance               Compliance
                                                                 Reported in             Reported in              Reported in
                                                                Accordance to           Accordance to            Accordance to
                                                                IAVA Policy             IAVA Policy              IAVA Policy
Commanders in Chiefs
U.S. Central Command                                                 Yes                     Yes                     Yes
U.S. European Command                                                Yes                     Yes                     Yes
U.S. Joint Forces Command                                            Yes                     Yes                     Yes
U.S. Pacific Command                                                 Yes                     Yes                     Yes
U.S. Southern Command                                                No                      Yes                     Yes
U.S. Space Command                                                   Yes                     Yes                     Yes
U.S. Special Operations Command                                      Yes                     Yes                     No
U.S. Strategic Command                                               Yes                     Yes                     Yes
U.S. Transportation Command                                          Yes                     Yes                     Yes
Services
Air Force*                                                           No                      No                      No
Army*                                                                No                      No                      No
Marine Corps                                                         Yes                     Yes                     Yes
Navy                                                                 Yes                     Yes                     Yes
Defense Agencies
Ballistic Missile Defense Organization                               Yes                     No                      Yes
Defense Advanced Research Projects Agency                            Yes                     Yes                     Yes
Defense Commissary Agency                                            Yes                     Yes                     Yes
Defense Contract Audit Agency                                        Yes                     Yes                     Yes
Defense Finance and Accounting Service                               Yes                     Yes                     Yes
Defense Information Systems Agency                                   Yes                     Yes                     Yes
Defense Intelligence Agency                                          Yes                     Yes                     Yes
Defense Logistics Agency                                             Yes                     Yes                     Yes
Defense Security Cooperation Agency                                  Yes                     No                      Yes
Defense Security Service**                                           No                      No                      Yes
Defense Threat Reduction Agency                                      No                      Yes                     Yes
National Imagery and Mapping Agency                                  Yes                     No                      Yes
National Reconnaissance Office                                       Yes                     Yes                     Yes
* DoD Components not complying with the Deputy Secretary of Defense IAVA policy memorandum.
** Defense Security Service is working to put an infrastructure in place to report the number of systems affected by the Information
Assurance Vulnerability Alerts.

                                                                21
                                                              Information Assurance Vulnerability Alert Numbers
                                                              2000-A-0001.0.0-01      2000-A-0002.0.0-01       2000-A-0003.0.0-01
                                                                  Compliance               Compliance              Compliance
                                                                  Reported in              Reported in             Reported in
                                                                 Accordance to            Accordance to           Accordance to
                                                                 IAVA Policy              IAVA Policy             IAVA Policy
Defense Agencies (cont’d)
National Security Agency/Central Security                             Yes                     Yes                      Yes
   Service
Other DoD Components
Inspector General, DoD                                                Yes                     Yes                      Yes
Joint Staff                                                           Yes                     Yes                      Yes
Office of Secretary of Defense***                                     No                      No                       No
Washington Headquarters Services                                      Yes                     Yes                      Yes
*** The Office of the Secretary of Defense indicates in the Information Assurance Vulnerability Alert database that statistics will be
reported after January 2001.




                                                                 22
Appendix E. The Information Assurance
            Vulnerability Alert (IAVA) Process
  Role of DISA DoD
 Computer Emergency
   Response Team                                      Role of System
       (CERT)           Role of Point of Contact      Administrator

  Becomes aware of a
  vulnerability


  Posts vulnerability
  information on        Receives notification
  CERT website          message and checks the
                        CERT website for details
                        on the IAVA
  Sends notification
  message by
  electronic mail
                        Disseminates IAVA to
                        system administrators of
                        subordinate organizations
                                                    Becomes aware of
                                                    an IAVA
                        Reports the
                        acknowledgment within
                        specified timeframe         Fixes the
                        (normally 5 days) to the    vulnerability or
                        IAVA database website       requests a waiver
                                                    from the Designated
                                                    Approval Authority
                        Receives and aggregates
                        compliance data
                                                    Reports compliance

                        Reports compliance to the
                        IAVA database website
                        within the specified
                        timeframe (normally 30
                        days)

                                  23
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense (Deputy Chief Information Officer)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Chief Information Officer, Department of Army

Department of the Navy
Commandant, Marine Corps
Naval Inspector General
Auditor General, Department of the Navy
Chief Information Officer, Department of Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of Air Force

Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Joint Forces Command
Commander in Chief, U.S. Southern Command
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Space Command
Commander in Chief, U.S. Special Operations Command


                                         24
Unified Commands (cont’d)

Commander in Chief, U.S. Transportation Command
Commander in Chief, U.S. Strategic Command

Other Defense Organizations
Director, Ballistic Missile Defense Organization
Director, Defense Advanced Research Projects Agency
Director, Defense Commissary Agency
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Intelligence Agency
   Inspector General, Defense Intelligence Agency
Director, Defense Legal Services Agency
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency
Director, Defense Security Service
Director, Defense Threat Reduction Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, National Imagery and Mapping Agency
Director, National Reconnaissance Office
Director, American Forces Information Services
Director, Defense Prisoner of War/Missing Personnel Office
Director, Department of Defense Education Activity
Director, Department of Defense Human Resources Activity
Director, Office of Economic Adjustment
Director, TRICARE Management Activity
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
  Office of Information and Regulatory Affairs




                                         25
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       26
Office of the Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence), Infrastructure and Information
Assurance Comments




                    27
28
29
30
Office of the Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence), Defense Network Operations
Comments




                    31
32
     Final Report
       Reference




     Deleted




33
34
U.S. Southern Command Comments




                35
Defense Advanced Research Projects Agency
Comments




                     36
37
Defense Commissary Agency Comments




                       38
39
Defense Contract Audit Agency Comments




                        40
Defense Finance and Accounting Service
Comments




                   41
42
Defense Security Service Comments




                   43
44
Defense Threat Reduction Agency
Comments




                  45
               The Joint Staff Comments

Final Report
 Reference




Revised




                              46
47
Department of Defense Education Activity
Comments




                         48
49
               Washington Headquarters Services Comments

Final Report
 Reference




Revised
Pages 3 and
18




                             50
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector General for Auditing,
   DoD, prepared this report.

     Thomas F. Gimble
     Mary L. Ugone
     Robert K. West
     Eleanor A. Wills
     Lois J. Wozniak
     Kelli M. Burkewitz
